<html>
<title> - OVERSIGHT OF THE REPORT BY SPECIAL COUNSEL ROBERT S. MUELLER III: FORMER WHITE HOUSE COUNSEL DONALD F. MCGAHN II</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




   OVERSIGHT OF THE REPORT BY SPECIAL COUNSEL ROBERT S. MUELLER III: 
             FORMER WHITE HOUSE COUNSEL DONALD F. MCGAHN II

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         TUESDAY, MAY 21, 2019



                           Serial No. 116-22



         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







               Available via: http://judiciary.house.gov 
               
               
               
               
               
               
               
                             _________
                              
                 U.S. GOVERNMENT PUBLISHING OFFICE
                 
44-798                   WASHINGTON : 2019
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                       COMMITTEE ON THE JUDICIARY

                    JERROLD NADLER, New York, Chair
               MARY GAY SCANLON, Pennsylvania, Vice-Chair
ZOE LOFGREN, California              DOUG COLLINS, Georgia, Ranking 
SHEILA JACKSON LEE, Texas                Member
STEVE COHEN, Tennessee               DEBBIE MUCARSEL-POWELL, Florida
HENRY C. ``HANK'' JOHNSON, Jr.,      VERONICA ESCOBAR, Texas
    Georgia                          F. JAMES SENSENBRENNER, Jr., 
THEODORE E. DEUTCH, Florida              Wisconsin
KAREN BASS, California               STEVE CHABOT, Ohio
CEDRIC L. RICHMOND, Louisiana        LOUIE GOHMERT, Texas
HAKEEM S. JEFFRIES, New York         JIM JORDAN, Ohio
DAVID N. CICILLINE, Rhode Island     KEN BUCK, Colorado
ERIC SWALWELL, California            JOHN RATCLIFFE, Texas
TED LIEU, California                 MARTHA ROBY, Alabama
JAMIE RASKIN, Maryland               MATT GAETZ, Florida
PRAMILA JAYAPAL, Washington          MIKE JOHNSON, Louisiana
VAL BUTLER DEMINGS, Florida          ANDY BIGGS, Arizona
J. LUIS CORREA, California           TOM MCCLINTOCK, California
SYLVIA R. GARCIA, Texas              DEBBIE LESKO, Arizona
JOE NEGUSE, Colorado                 GUY RESCHENTHALER, Pennsylvania
LUCY MCBATH, Georgia                 BEN CLINE, Virginia
GREG STANTON, Arizona                KELLY ARMSTRONG, North Dakota
MADELEINE DEAN, Pennsylvania         W. GREGORY STEUBE, Florida

        PERRY APELBAUM, Majority Staff Director & Chief Counsel
                BRENDAN BELAIR, Minority Staff Director 
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              

                              MAY 21, 2019

                                                                   Page

                           OPENING STATEMENTS

The Honorable Jerrold Nadler, Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Doug Collins, Ranking Member, Committee on the 
  Judiciary......................................................     4

 
   OVERSIGHT OF THE REPORT BY SPECIAL COUNSEL ROBERT S. MUELLER III: 
             FORMER WHITE HOUSE COUNSEL DONALD F. MCGAHN II

                              ----------                              


                         Tuesday, May 21, 2019

                        House of Representatives

                       Committee on the Judiciary

                             Washington, DC

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2141, Rayburn House Office Building, Hon. Jerrold Nadler 
[chairman of the committee] presiding.
    Present: Representatives Nadler, Lofgren, Jackson Lee, 
Cohen, Johnson of Georgia, Bass, Richmond, Cicilline, Lieu, 
Raskin, Jayapal, Demings, Correa, Scanlon, Garcia, Neguse, 
McBath, Stanton, Dean, Mucarsel-Powell, Escobar, Collins, 
Chabot, Gohmert, Jordan, Buck, Ratcliffe, Gaetz, Johnson of 
Louisiana, McClintock, Reschenthaler, Cline, Armstrong, and 
Steube.
    Staff Present: Aaron Hiller, Deputy Chief Counsel; Arya 
Hariharan, Deputy Chief Oversight Counsel; David Greengrass, 
Senior Counsel; John Doty, Senior Advisor; Lisette Morton, 
Director of Policy, Planning, and Member Services; Madeline 
Strasser, Chief Clerk; Moh Sharma, Member Services and Outreach 
Advisor; Susan Jensen, Parliamentarian/Senior Counsel; Sophie 
Brill, Counsel; Will Emmons, Professional Staff Member; Brendan 
Belair, Minority Chief of Staff; Jon Ferro, Minority 
Parliamentarian; Carlton Davis, Minority Chief Oversight 
Counsel; Ashley Callen, Minority Senior Adviser and Oversight 
Counsel; and Erica Barker, Minority Chief Legislative Clerk.
    Chairman Nadler. The Judiciary Committee will come to 
order.
    Without objection, the chair is authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to today's hearing on ``Oversight of 
the Report by Special Counsel Robert Mueller III: Former White 
House Counsel Donald McGahn II.'' I will now recognize myself 
for an opening statement.
    More than a year ago, White House counsel Don McGahn sat 
for the first of several interviews with special counsel Robert 
Mueller. Over the course of those interviews, he described how 
the President directed him to have the special counsel fired. 
He described how the President ordered him to lie about it. He 
described several other obstructive incidents outlined in the 
special counsel's report.
    The President, in contrast, refused to be interviewed by 
the special counsel or even to answer written questions about 
his attempts to obstruct the investigation. Instead, to address 
the allegations spelled out by Mr. McGahn and outlined in the 
report, President Trump relied on his preferred mode of 
communication. He took to Twitter to call Mr. McGahn a liar. 
His lawyers went on cable television to do the same, to call 
Mr. McGahn a liar.
    There are reports of the President and his lieutenants 
exerting other kinds of pressure on Mr. McGahn. In short, the 
President took it upon himself to intimidate a witness who has 
a legal obligation to be here today. This conduct is not 
remotely acceptable.
    The White House asserts that Mr. McGahn does not have to 
appear today because he is entitled to ``absolute immunity'' 
from our subpoenas. We know this argument is wrong, of course, 
because the executive branch has tried this approach before. In 
2007, President George Bush attempted to invoke a similarly 
broad and unjustified assertion of executive privilege and 
asked his former counsel Harriet Miers to ignore a subpoena 
issued by this committee. Ms. Miers also did not appear at her 
scheduled hearing.
    Judge John Bates, who was appointed by President Bush, 
slapped down that argument fairly quickly. ``The executive 
cannot identify a single judicial opinion that recognizes 
absolute immunity for senior presidential advisers in this or 
any other context. That simple, yet critical fact bears 
repeating. The asserted absolute immunity claim here is 
entirely unsupported by the case law,'' from the judicial 
decision.
    In other words, when this Committee issues a subpoena, even 
to a senior presidential adviser, the witness must show up. Our 
subpoenas are not optional. Mr. McGahn has a legal obligation 
to be here for this scheduled appearance. If he does not 
immediately correct his mistake, this Committee will have no 
choice but to enforce the subpoena against him.
    Mr. McGahn did not appear today because the President 
prevented it, just as the President has said that he would 
``fight all subpoenas'' issued by Congress as part of his 
broader efforts to cover up his misconduct. This stonewalling 
makes it more important to highlight some of the incidents that 
Mr. McGahn is said to have witnessed. Let me recount some of 
them.
    We know that the President directed Mr. McGahn to prevent 
then Attorney General Sessions from recusing himself from 
overseeing the investigation into Russian election 
interference. On March 3, 2017, shortly after Attorney General 
Jeff Sessions did recuse himself from the Russia investigation, 
the President summoned Mr. McGahn to the Oval Office. According 
to the Mueller report, ``The President opened the conversation 
by saying, `I don't have a lawyer.' ''
    The President told Mr. McGahn that he wished that Roy Cohn 
was his attorney instead. Roy Cohn, of course, is known 
principally as the chief architect of the Army--McCarthy 
hearings that destroyed so many lives back in 1954, an actual 
political witch hunt, not the imaginary kind that the President 
decries.
    Mr. Cohn served as President Trump's lawyer for a long 
time, defending the President against Federal discrimination 
suits before he, that is, Mr. Cohn was ultimately disbarred for 
unethical practices in 1986.
    Mr. McGahn refused to follow blindly into unethical 
behavior. Mr. McGahn told the President that the Department of 
Justice ethics officials had weighed in and that Mr. Sessions 
would not unrecuse himself, and he advised the President not to 
have any contact with Mr. Sessions on the matter. Days later, 
the President did exactly the opposite.
    He summoned Mr. McGahn and Mr. Sessions to Mar-a-Lago, 
where the President again ``expressed his anger.'' He said he 
wanted Mr. Sessions to Act as his fixer. He said he wanted Mr. 
Sessions to undo his recusal and to limit the scope of the 
investigation. Mr. Sessions, too, refused the President's 
orders.
    On June 17, 2017, the President took his displeasure a step 
further. He called Mr. McGahn at home and directed him to order 
Rod Rosenstein to fire Robert Mueller. ``Mueller has to go,'' 
the President barked, ``Call me back when you do it.''
    Once again, Mr. McGahn refused. This time, Mr. McGahn felt 
the President's behavior was so inappropriate that he said he 
would rather resign than trigger a constitutional crisis.
    In early 2018, after press reports described the 
President's attempt to force Mr. McGahn to remove the special 
counsel on his behalf, the President repeated his pattern. He 
summoned Mr. McGahn to his office, and he got angry. ``This 
story doesn't look good. You need to correct this. You are the 
White House counsel,'' President Trump told Mr. McGahn.
    ``What about these notes? Why do you take notes?'' the 
President said to Mr. McGahn, inquiring why Mr. McGahn had 
documented their conversation.
    The President then told Mr. McGahn to tell the American 
people something that was not true. He asked him to deny those 
reports publicly. Mr. McGahn again refused the President's 
order. He refused the President's order to lie to the American 
people on the President's behalf. Six months later, the 
President announced that Mr. McGahn would be leaving the White 
House.
    The special counsel found Mr. McGahn to be ``a credible 
witness with no motive to lie or exaggerate, given the position 
he held in the White House.'' That is from the Mueller report.
    The special counsel also found the following: ``Substantial 
evidence indicates that by June 17, 2017, the President knew 
his conduct was under investigation by a Federal prosecutor who 
could present any evidence of Federal crimes to a grand jury. 
Substantial evidence indicates that the President's attempts to 
remove the special counsel were linked to the special counsel's 
oversight of investigations that involved the President's 
conduct and, most immediately, to reports that the President 
was being investigated for potential obstruction of justice.''
    ``Substantial evidence indicates''--and these are all 
quotes from the report--``substantial evidence indicates that 
in repeatedly urging McGahn to dispute that he was ordered to 
have the special counsel terminated, the President acted for 
the purpose of influencing McGahn's account in order to deflect 
or prevent further scrutiny of the President's conduct towards 
the investigation. Substantial evidence indicates that the 
President's efforts to have Sessions limit the scope of the 
special counsel's investigation to future election interference 
was intended to prevent further investigative scrutiny of the 
President and his campaign's conduct.'' Those are all quotes 
from the special counsel's report.
    I believe that each of these incidents, documented in 
detail in the Mueller report, constitutes a crime. For the 
Department of Justice's policy of refusing to indict any 
sitting President, I believe the President would have been 
indicted and charged with these crimes.
    I am not alone in this belief. Over 900 former Federal 
prosecutors from across the political spectrum whose job was to 
determine when the elements of a crime have been satisfied have 
stated--have agreed that the President committed crimes that 
would have been charged if he were not the sitting President. I 
believe that the President's conduct since the report was 
released, with respect to Mr. McGahn's testimony and other 
information we have sought, has carried this pattern of 
obstruction and cover-up well beyond the four corners of the 
Mueller report.
    The President has declared out loud his intention to cover 
up this misconduct. He told Mr. McGahn to commit crimes on his 
behalf. He told Mr. McGahn lie about it. After the report came 
out, the President claimed that Mr. McGahn lied to the special 
counsel about what happened. Then he directed Mr. McGahn not to 
come here today so that the public would not hear his testimony 
and so that we could not question him.
    President Trump may think he can hide behind his lawyers as 
he launches a series of baseless legal arguments designed to 
obstruct our work. He cannot think these legal arguments will 
prevail in court, but he can think he can slow us down and run 
out the clock on the American people.
    Let me be clear. This Committee will hear Mr. McGahn's 
testimony, even if we must go to court to secure it. We will 
not allow the President to prevent the American people from 
hearing from this witness.
    We will not allow the President to block congressional 
subpoenas, putting himself and his allies above the law. We 
will not allow the President to stop this investigation. 
Nothing in these unjustified and unjustifiable legal attacks 
will stop us from pressing forward with our work on behalf of 
the American people. We will hold this President accountable, 
one way or the other.
    It is now my pleasure to recognize the Ranking Member of 
the Judiciary Committee, the gentleman from Georgia, Mr. 
Collins, for his opening statement.
    Mr. Collins. Thank you, Mr. Chairman, and thank you for all 
that have gathered here again.
    Here we go again. The theater is open, and the summations 
are coming in. In fact, right now we are again running over the 
norms of congressional oversight. We are dabbing at the edges 
of running roughshod on the Constitution, asking for things 
that we don't.
    I am glad about one thing. I am glad that Chairman read 
into the record today the Mueller report. I am glad that he 
quoted, as he said, this is a quote directly from the Mueller 
report. I just wish my chairman would actually go read the rest 
of it that he has been offered to read, which he has chosen not 
to read.
    He did leave out one thing. He left out something in the 
Mueller report from just now. He read McGahn's testimony 
beautifully, did everything right. He left out what he doesn't 
want to have to come back to and the frustrating thing that has 
brought us here again and again and again, and that is the 
conclusions. There was no collusion. There was no obstruction 
charge. There is nothing here.
    After 2 years of doing this, we can read it in, you can 
talk about how you don't like it, you can talk about what you 
would like to have. At the end of the day, it is interesting we 
will read in the quotes that make the headlines, but we are 
also not going to read in the bottom line of what was actually 
concluded.
    So, the Democrats are here trying again. The Mueller report 
concluded there was no collusion, no obstruction. Because the 
report failed to provide damning information against the 
President, the majority claims we need to dig deeper, deeper 
than the 2 years of investigation conducted by what is 
considered a prosecutorial dream team because that probe ended 
without criminal charges against the President or his family.
    The special counsel closed up shop without giving Democrats 
anything to deliver to their base. Now the Democrats are trying 
desperately to make something out of nothing, which is why 
Chairman has again haphazardly subpoenaed today's witness. That 
move, though, has actually ensured the witness will not 
testify.
    This is becoming a pattern. The chairman knew this, I 
believe, when he sent the subpoena last month. Instead of 
inviting the witness to testify voluntarily and working with 
McGahn's counsel to find mutual agreeable time and scope for 
the testimony, Chairman rushed to maximize headlines by issuing 
a subpoena. That subpoena was the third in just 4 months, more 
subpoenas than the prior chairman issued in 6 years.
    The chairman had several ways out here. He took none of 
them. The chairman could have invited the witness to testify 
voluntarily. That was the practice in the 1990s when the White 
House counsel testified before Congress. Chairman did not do 
that. Instead, he launched a subpoena at the witness without 
any consultation or follow-up with the witness' lawyer.
    The chairman could have invited the witness to testify 
behind closed doors, but that would have been politically 
expedient, and you would not have been here, and the show would 
not have been as exciting. A closed-door conversation would not 
have generated those headlines and everything that we are 
looking at today. Even gaveling in today's hearing without a 
witness is theatrical.
    The cameras love a spectacle, and the majority loves the 
chance to rant against the Administration. I just am glad today 
to see that we don't have chicken on the dais.
    The chairman orchestrated today's confrontation when he 
could have avoided it because he is more interested in the 
fight than the fact finding. Take the Mueller report, which we 
have already heard quoted from. More than 99 percent the 
Justice Department has offered to Chairman. For an entire 
month, Chairman refused to take a look at it.
    The Attorney General who volunteered to testify before the 
committee, Chairman changed the rules for the first time in the 
committee's 200-year history, thus blocking General Barr from 
testifying.
    I cannot emphasize this enough. The track record 
demonstrates he does not actually want information. He wants 
the fight, but not the truth. The closer he actually comes to 
obtaining information, the further we run from it.
    The Democrats claim to need today's witness to investigate 
obstruction of justice, but that investigation was already 
done. Robert Mueller spent 2 years running it and then closed 
it. We are not a prosecutorial body, but a legislative body 
that does have valid congressional oversight. But let us talk 
about that Mueller report for just a second. It is really 
interesting to me that the Mueller report was actually--within 
24 hours of coming out, Chairman and the majority subpoenaed 
for all of the documents.
    In fact, we have a legal subpoena that asked the Attorney 
General to provide documents he cannot legally provide. That 
has been covered in this Committee for the last 2 weeks 
exhaustively, and even the panel that was with us last week 
agreed that the subpoena asked the Attorney General to do 
something illegal by exposing 6(e) information. That was his 
own witnesses said that last week.
    You know what is interesting to me is that we have 
subpoenaed the documents. We have subpoenaed that we want 
underlying documents. We have subpoenaed stuff that we can't 
get. You know the one thing we seem to avoid is Mr. Mueller 
himself, the one who wrote it.
    We have asked since April about Mr. Mueller coming. Every 
time we seem to get close to Mueller, Mueller just gets pushed 
on a little bit. Hadn't seen a subpoena here, and this is what 
is really amazing. We will get back to subpoenas in a moment.
    Just think about that. You wanted the work of the author, 
but you don't want to talk to the author. Keep that pinned for 
just a moment. When we look at this, 99 percent of the 
information is at the Democrats' fingertips, and it is the 
Mueller report the Attorney General offered to Speaker Pelosi, 
Chairman Nadler, and others to have seen it, but they refuse.
    So don't be fooled. The majority wants the fight. They want 
the drama. He does not actually want the information he claims 
to be seeking. After the Administration made volumes of 
information available to this committee, Chairman issued 
overbroad subpoenas and now harangues the Administration for 
being unable to comply with those subpoenas.
    In fact, it is the Democrats who are not engaging in the 
accommodation process, abruptly cutting off negotiations, 
rejecting olive branches by the Administration. I want to come 
back to something my chairman just said a moment ago. His quote 
was in his opening statements that our subpoenas are not 
optional.
    Well, we found out a lot about subpoenas over the last 
month or so in this committee. I found out that subpoenas maybe 
now are not optional. Let us add to the list. Subpoenas are 
also a discussion starter. A subpoena is to give us better 
standing in court. Not my quotes, Chairman's quotes.
    So what is it? Is a subpoena the legal document that we 
have talked about all along in here and the forceful document 
that all attorneys in this country actually use, or is it a 
discussion starter? Is it to help our standing in court, or is 
it we don't want it ignored?
    At this time, it is amazing to me that the accommodation 
process--and we talk about the committee, and Chairman 
forcefully talked about our oversight. I agree with Chairman on 
this point. This Committee and all committees in Congress have 
oversight responsibility, but it is also the sacred 
responsibility of Chairman and the majority to use it properly 
and to not headlong rush into subpoenas when you don't get what 
you want.
    That is all we have seen in 5 months here. When we don't 
get what we want, we subpoena. The first one was the Acting 
Attorney General. We subpoenaed, and then we backed off. We 
caved. Then everything else has become a race to get a 
headline. The accommodation process, not happening. The 
accommodation process, never here.
    So don't be fooled. You may have come wanting--you may have 
an opinion that says everything is wrong today with the Mueller 
report and the President is guilty, but don't undercut 
congressional oversight because you can't wait. That is the 
problem we have right now.
    So the question is, are we tearing at the fabric of 
congressional oversight? It was really interesting to hear some 
of that last week. When you have a Committee that has issued 
subpoenas that ask the Attorney General to do something 
illegal, when you have the subpoenas when no accommodation 
process has been put in place, when you have contempt issues 
that have been in part with no process and no time going 
through, I just submit to you this.
    Whatever your opinion on the Mueller report, great. Glad 
you have it. You didn't get it here today, and you are not 
getting it from this Committee because this Committee 
undoubtedly doesn't like the author or want to talk to the 
author of the report. They just want to talk about the report 
and make innuendo and attack the President at the middle of the 
day when this committee, who has charge of immigration, who has 
charge of intellectual property, who we have touched none of 
with a crisis at the border.
    We have an admission that the economy is good, jobs are 
happening, unemployment is at its lowest rate. I guess at the 
end of the day, we can't find something that the Mueller report 
lets them hang their I-word, ``impeachment,'' on, which they 
can't even agree on, because the President is continuing to do 
his job. We are here again with the circus in full force.
    With that, I yield back.
    Mr. Cohen. Mr. Chairman? Mr. Chairman?
    Mr. Chabot. Mr. Chairman?
    Chairman Nadler. Thank you, Mr. Collins. Who seeks 
recognition?
    Mr. Cohen. Move to strike the last word.
    Chairman Nadler. The gentleman from Tennessee?
    Mr. Cohen. Move to adjourn.
    Chairman Nadler. Motion is made to adjourn.
    Mr. Chabot. Mr. Chairman? Mr. Chairman?
    Chairman Nadler. Motion to adjourn is not debatable.
    All in favor?
    Opposed?
    Mr. Chabot. Recorded vote.
    Chairman Nadler. Do I hear a request for a recorded vote?
    Mr. Chabot. Request for recorded vote.
    Chairman Nadler. The clerk will call the roll on the motion 
to adjourn.
    Ms. Strasser. Mr. Nadler?
    Chairman Nadler. Aye.
    Ms. Strasser. Mr. Nadler votes aye.
    Ms. Lofgren?
    Ms. Lofgren. Aye.
    Ms. Strasser. Ms. Lofgren votes aye.
    Ms. Jackson Lee?
    Ms. Jackson Lee. Aye.
    Ms. Strasser. Ms. Jackson Lee votes aye.
    Mr. Cohen?
    Mr. Cohen. Aye.
    Ms. Strasser. Mr. Cohen votes aye.
    Mr. Johnson of Georgia?
    Mr. Johnson of Georgia. Aye.
    Ms. Strasser. Mr. Johnson of Georgia votes aye.
    Mr. Deutch?
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Strasser. Ms. Bass votes aye.
    Mr. Richmond?
    Mr. Richmond. Aye.
    Ms. Strasser. Mr. Richmond votes aye.
    Mr. Jeffries?
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Strasser. Mr. Cicilline votes aye.
    Mr. Swalwell?
    Mr. Lieu?
    Mr. Lieu. Aye.
    Ms. Strasser. Mr. Lieu votes aye.
    Mr. Raskin?
    Mr. Raskin. Aye.
    Ms. Strasser. Mr. Raskin votes aye.
    Ms. Jayapal?
    Ms. Jayapal. Aye.
    Ms. Strasser. Ms. Jayapal votes aye.
    Mrs. Demings?
    Mrs. Demings. Aye.
    Ms. Strasser. Mrs. Demings votes aye.
    Mr. Correa?
    Mr. Correa. Aye.
    Ms. Strasser. Mr. Correa votes aye.
    Ms. Scanlon?
    Ms. Scanlon. Aye.
    Ms. Strasser. Ms. Scanlon votes aye.
    Ms. Garcia?
    Ms. Garcia. Aye.
    Ms. Strasser. Ms. Garcia votes aye.
    Mr. Neguse?
    Mr. Neguse. Aye.
    Ms. Strasser. Mr. Neguse votes aye.
    Mrs. McBath?
    Mrs. McBath. Aye.
    Ms. Strasser. Mrs. McBath votes aye.
    Mr. Stanton?
    Mr. Stanton. Aye.
    Ms. Strasser. Mr. Stanton votes aye.
    Ms. Dean?
    Ms. Dean. Aye.
    Ms. Strasser. Ms. Dean votes aye.
    Ms. Mucarsel-Powell?
    Ms. Mucarsel-Powell. Aye.
    Ms. Strasser. Ms. Mucarsel-Powell votes aye.
    Ms. Escobar?
    Ms. Escobar. Aye.
    Ms. Strasser. Ms. Escobar votes aye.
    Mr. Collins?
    Mr. Collins. No.
    Ms. Strasser. Mr. Collins votes no.
    Mr. Sensenbrenner?
    Mr. Chabot?
    Mr. Chabot. No. And this is disgraceful.
    Ms. Strasser. Mr. Chabot votes no.
    Mr. Gohmert?
    Mr. Gohmert. No.
    Ms. Strasser. Mr. Gohmert votes no.
    Mr. Jordan?
    Mr. Jordan. No.
    Ms. Strasser. Mr. Jordan votes no.
    Mr. Buck?
    Mr. Buck. No.
    Ms. Strasser. Mr. Buck votes no.
    Mr. Ratcliffe?
    Mr. Ratcliffe. No.
    Ms. Strasser. Mr. Ratcliffe votes no.
    Mrs. Roby?
    Mr. Gaetz?
    Mr. Gaetz. No.
    Ms. Strasser. Mr. Gaetz votes no.
    Mr. Johnson of Louisiana?
    Mr. Johnson of Louisiana. No.
    Ms. Strasser. Mr. Johnson of Louisiana votes no.
    Mr. Biggs?
    Mr. McClintock?
    Mr. McClintock. No.
    Ms. Strasser. Mr. McClintock votes no.
    Mrs. Lesko?
    Mr. Reschenthaler?
    Mr. Reschenthaler. No.
    Ms. Strasser. Mr. Reschenthaler votes no.
    Mr. Cline?
    Mr. Cline. No.
    Ms. Strasser. Mr. Cline votes no.
    Mr. Armstrong?
    Mr. Armstrong. No.
    Ms. Strasser. Mr. Armstrong votes no.
    Mr. Steube?
    Mr. Steube. No.
    Ms. Strasser. Mr. Steube votes no.
    Chairman Nadler. Is there anyone who wishes to vote who 
hasn't voted?
    [No response.]
    Chairman Nadler. The clerk will report.
    Ms. Strasser. Mr. Chairman, there are 21 ayes and 13 noes.
    Chairman Nadler. There are 21 ayes and 13 noes. The motion 
to adjourn is adopted, and the hearing is adjourned.
    [Whereupon, at 10:27 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
